U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General
                                                

                                                      


        National Telecommunications
                                and
         Information Administration


       Second Annual Assessment of the
            Public Safety Interoperable
       Communications Grant Program


                    Final Report No. OIG-11-001-A

                                   October 7, 2010




               FOR PUBLIC RELEASE




                     Office of Audit and Evaluation




                                                
                                                       UNITED STATES DEPARTMENT OF COMMERCE
                                                       Office of Inspector General
                                                       Washington. D.C. 20230




October 7, 20 I0


MEMORANDUM FOR:                 Lawrence E. Strickling
                                Assistant Secretary for
                                 Communications and Information
                                National Telecommunications and
                                 Information Administration



FROM:

                                Principal Assistant Inspector General for
                                Audit and Evaluation

SUBJECT:                       Final Audit Report No. OIG-ll-OO I-A
                               Second Annual Assessment ojthe Public SaJety Interoperable
                               Communications Grant Program


This memorandum transmits our final audit report detailing the results of our second annual
assessment ofNTlA's management of the Public Safety Interoperable Communications (PSIC)
grant program.

As you know, we are required by the Implementing Recommendations of the 9/11 Commission
Act of2007 to assess PSIC grant administration annually through 2011. Our audit covered PSIC
formula allocations, applications, grant awards, statewide communications interoperability plans,
and investment justifications for the fiscal year ended September 30,2009, with selected data
through March 31, 2010. We coordinated our review with the Department of Homeland Security
Office of Inspector General.

In brief, we found that although matching share for grantees is a significant concem, close
monitoring by NTIA and the Federal Emergency Management Agency should help to ensure a
successful completion of the program. Additionally, while the grantees are making progress
toward meeting the goals of the PSIC program, our next series of audits will result in a more in­
depth analysis and understanding of the operational aspects of the individual grant programs.

In accordance with Department Administrative Order 213-5, please provide us with an audit
action plan within 60 days of the date of this memorandum, detailing the steps you have taken
and those you intend to take in response to our recommendation. Please submit the plan to Jerry
McMahan, our Atlanta Assistant Regional Inspector General, at the address below.
United States Department of Commerce
Office of Inspector General
401 W. Peachtree Street, NW
Suite 2742
Atlanta, GA 30308

Please direct any questions regarding this report to Mr. McMahan at (404) 730-2065 and refer to
the report number listed above in any related correspondence.

Attachment


cc: 	   Milton Brown, NTIA Audit Liaison
        Kathy Smith, NTIA Chief Counsel
        Laura Pettus, PSIC Program Manager
        Daniel Meyerson, JD, NTIA Communications Program Specialist
                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                        Office of Inspector General
                                                        Washington. D.C. 20230




October 7, 20 I0

Ms. Elizabeth M. Harman
Assistant Administrator
Grant Programs Directorate
Federal Emergency Management Agency
500 C Street, SW
Washington, DC 20472-3635

Dear Ms. Harman:

This letter transmits our final audit report (report number OIG-II-OO I-A) detailing the results of
our second annual assessment of the National Telecommunications and Information
Administration's (NTIA's) management of the Public Safety Interoperable Communications
(PSIC) grant program.

As you know, we are required by the Implementing Recommendations of the 9/11 Commission
Act of 2007 to assess PSIC grant administration annually through 2011. Our audit covered PSIC
formula allocations, applications, grant awards, statewide communications interoperability plans,
and investment justifications for the fiscal year ended September 30,2009, with selected data
through March 31, 20 IO. We coordinated our review with the Department of Homeland Security
Office of Inspector General.

In brief, we found that although matching share for grantees is a significant concern, close
monitoring by NTIA and the Federal Emergency Management Agency should help to ensure a
successful completion of the program. Additionally, while the grantees are making progress
toward meeting the goals of the PSIC program, our next series of audits will result in a more in­
depth analysis and understanding of the operational aspects of the individual grant programs.

Please direct any questions regarding this report to Jerry McMahan, Atlanta Assistant Regional
Inspector General for Audit, at (404) 730-2065, and refer to the report number above in any
related correspondence.




J: ~ J31<c
Ann C. Eilers
Principal Assistant Inspector General for
Audit and Evaluation

Enclosure
cc: 	   David Turner, DHS/FEMA PSIC Program Manager
        Richard L. Skinner, DHS Inspector General
        Bradley A. Shefka, DHS Audit Liaison
        Penny McCormack, FEMA Audit Liaison
        Gina Norton, FEMA Audit Liaison
        Mildred Lloyd, DHS/FEMA Grant Programs Directorate Audit Liaison
        Mike Siviy, DHS OIG Grants Management
                                Re
                                 eport
                                   port In Brief
                                            U.S. Department of Commerce Office of Inspector General
                                                                October 7, 2010



Why We Did this Review               National Telecommunications and Information Administration (NTIA)
We audited NTIA’s management
of the PSIC program to deter-        Second Annual Assessment of the Public Safety Interop-
mine whether
                                     erable Communications (PSIC) Grant Program (OIG-11-001-A)
(1) the program was operating
efficiently, with grantees procur-
ing communications equipment; What We Found
 (2) the program would effec-        This report details our second annual assessment of NTIA’s PSIC grants man-
tively enable the grant recipients
                                     agement for the year ended September 30, 2009, with selected updates through
to complete their interoperable
communications projects before       March 31, 2010.
the program’s deadline; and
                                     We found that grantees are making progress in meeting the goal of obtaining
(3) whether technical assistance
                                     communications equipment for use by local public safety agencies. We did not
provided by NTIA and the Fed-
eral Emergency Management            find any indication that grantees will not meet the PSIC award period deadline.
Agency (FEMA) will be effec-         However, grantees are having difficulty meeting and documenting nonfederal
tive in assisting grantees achieve   matching fund requirements. Also, NTIA has not closely monitored the grantees
program goals.                       to prevent ineligible matching share claims.
Background                           NTIA and FEMA have released several guidance documents, conducted work-
The Digital Television Transi-   shops, and held conferences to help grant recipients achieve the goals of the
tion and Public Safety Act of
2005 authorized NTIA, in con- PSIC program. Their assistance will benefit grantees that are trying to meet the
sultation with the Department obligations of the program before the deadline for funding is reached.
of Homeland Security (DHS), to
implement the PSIC program—
a $1 billion one-time, formula-
based matching grant program
intended to enable public safety What We Recommended
agencies to establish interoper-
able emergency communications In our draft report, we recommended that NTIA and the FEMA Grant Programs
systems using reallocated radio
spectrum.
                                 Directorate closely monitor grantees’ matching shares to ensure that matches
                                     directly benefit the PSIC grant program, meet eligibility, and are properly re-
The original award period for        ported.
PSIC grants ran from October
1, 2007, to September 30, 2010.      In their responses, NTIA and FEMA both concurred with our recommendation.
In November 2009, the Presi-         NTIA stated that it would continue its efforts to monitor matching shares, and
dent signed an act extending the     FEMA listed several activities it has undertaken or planned to help grantees
award period to September 30,
                                     understand the matching share requirements.
2011.

The Implementing Recommen-
dations of the 9/11 Commis-
sion Act of 2007 requires the
Commerce Inspector General to
conduct an annual assessment
of the PSIC program and report
our findings to Congress.
U.S. Department of Commerce                                                                                   Final Report OIG-11-001-A

Office of Inspector General                                                                                              October 7, 2010 



                                                                 Contents
                                                                          
Introduction..................................................................................................................................... 1 

Findings and Recommendations ..................................................................................................... 2 

    I.    Grantee Matching Share Is a Concern ................................................................................. 2 

    II. Investments Appear to Be on Track for Completion Before End of Grant ......................... 3 

    III. Technical Assistance Provided by NTIA and FEMA Should Be Effective in Assisting 

    Grantees Achieve Program Goals ............................................................................................... 3 

Summary of Agency Responses ..................................................................................................... 5 

Appendix A: Objectives, Scope, and Methodology ....................................................................... 6 

Appendix B: PSIC Drawdowns ...................................................................................................... 7 

Appendix C: Agency Responses..................................................................................................... 9 





 
U.S. Department of Commerce                                                    Final Report OIG-11-001-A

Office of Inspector General                                                               October 7, 2010 



                                                               INTRODUCTION


The Implementing Recommendations of the 9/11 Commission Act of 2007 require the
Department of Commerce’s Office of Inspector General to annually assess the National
Telecommunications and Information Administration’s (NTIA’s) management of the Public
Safety Interoperable Communications (PSIC) grant program and transmit our findings to the
House Committee on Energy and Commerce and the Senate Committee on Commerce, Science
and Transportation.
The PSIC program was authorized by the Digital Television Transition and Public Safety Act of
2005. The Act established a $1 billion formula-based matching grant program and set a deadline
of September 30, 2010, for grant funds to be expended. In our first annual PSIC report to
Congress,1 we found that most of the grant recipients that could benefit from the program would
not have enough time to complete their projects within the required timeframe. As a result,
legislation was drafted and the President signed Public Law 111-96 on November 6, 2009,
allowing funding to remain available until expended through fiscal year 2011, or through fiscal
year 2012 with NTIA’s approval.
This report details our second annual assessment of NTIA’s PSIC grants management for the
year ended September 30, 2009, with selected updates through March 2010. The objectives of
our review focused on NTIA’s management of the PSIC program to determine whether (1) the
program was operating efficiently with grantees procuring communications equipment, (2) the
program would effectively enable the grant recipients to complete their interoperable
communications projects before September 30, 2011, and (3) technical assistance provided by
NTIA and the Federal Emergency Management Agency (FEMA) will be effective in assisting
grantees achieve PSIC’s program goals by the September 30, 2011, PSIC program deadline. A
complete outline of our objectives, scope, and methodology is included as appendix A.
Our assessment found that grantees are having difficulties meeting and properly documenting
allowable matching funds and will require close monitoring by NTIA and FEMA to ensure
successful completion of the program. Additionally, while the grantees are, overall, making
progress in meeting the goals of the PSIC program, our next series of audits will result in a more
in-depth analysis and understanding of the operational aspects of the individual grant programs.




                                                            
1
  Commerce OIG. March 2009. Public Safety Interoperable Communications Grant Program: Grantees Appear
Unlikely to Finish Projects Within Short Funding Time Frame [Online].
http://www.oig.doc.gov/oig/reports/2009/DEN-19003.pdf



                                                                    1
 
U.S. Department of Commerce                                                               Final Report OIG-11-001-A

Office of Inspector General                                                                          October 7, 2010 



                                                           FINDINGS AND RECOMMENDATIONS


I.         Grantee Matching Share Is a Concern

In response to whether the program was operating efficiently with grantees procuring
communications equipment, we reviewed recipient drawdowns as of March 31, 2010 (see
appendix B) and interviewed NTIA program staff. Based on this review and discussions with
NTIA, we believe grantees are making progress. However, the matching share area could
potentially present significant problems. As discussed below, we see a pattern in which states are
having difficulties meeting and documenting allowable matching fund requirements.
The Digital Television Transition and Public Safety Act of 2005 requires a minimum 20 percent
matching share from nonfederal sources for the acquisition and deployment of interoperable
communications equipment and management and administration expenses. According to NTIA’s
online guide Improving Interoperable Communications Nationwide, 2 grantees are planning to
provide more than $256 million in matching funds. If grantees do not meet the matching share
requirement stated in their respective grants, the amount of federal funding for which they
qualify will be reduced. The goals of the program—to help state and local first responders
improve public safety communications during a natural or man-made disaster—could be in
jeopardy if grantees see their projected federal funding reduced.
In the audits of PSIC grantees we completed as of March 2010, and in the ongoing audits
subsequent to that date, we identified a programmatic issue that we believe warrants close
attention by NTIA. Specifically, we have concerns with the grantees’ ability to meet and
document the matching share requirement. In addition, NTIA has not closely monitored the
grantees to prevent ineligible matching share. As of March 2010, we had completed four
program audits in Louisiana, Nevada, Pennsylvania, and Arkansas; we found no problems in the
Louisiana audit, but the other three had difficulties in complying with the matching share
requirement:
       ●	 Nevada3 - the grantee had not documented $1.29 million of the $2.5 million committed
          minimum match required for the grant. Documentation was in process.
       ●	 Pennsylvania4 and Arkansas5 - Pennsylvania proposed $3.3 million and Arkansas
          $2.6 million in nonfederal matching shares that were not for eligible PSIC expenses. The
          investment schedules presented to NTIA by both states included these unacceptable
          matching share projects. The investment information was not sufficiently detailed for
          NTIA to determine whether the matching share items were acceptable. However, NTIA

                                                            
2
  NTIA. November 2008. Improving Interoperable Communications Nationwide: Overview of Initial State and
Territory Investments, 3. [Online]
http://www.ntia.doc.gov/psic/PSIC%20Investment%20Data%20Analysis%20(report%20and%20appendix).pdf
3
  Commerce OIG. September 2009. Nevada Public Safety Interoperable Communications Grant PSIC Award No. 

2007-GS-H7-0015 [Online]. http://www.oig.doc.gov/oig/reports/2009/DEN-19431.pdf

4
  Commerce OIG. March 2010. Pennsylvania Public Safety Interoperable Communications Grant PSIC Award No. 

2007-GS-H7-0028 [Online] http://www.oig.doc.gov/oig/reports/2010/DEN-19429.pdf

5
  Commerce OIG. March 2010. Arkansas Public Safety Interoperable Communications Grant PSIC Award No. 

2007-GS-H7-0012 [Online] http://www.oig.doc.gov/oig/reports/2010/DEN-19430.pdf




                                                                        2
 
U.S. Department of Commerce                                                          Final Report OIG-11-001-A

Office of Inspector General                                                                     October 7, 2010 



              approved the submissions from both states and incorporated the amounts into the related
              project budgets. Based on our recommendations, both states revised their proposed
              matching shares to include only eligible expenses. NTIA approved the revised matching
              share proposals.
Audits in progress subsequent to March 2010 were for the states of California, Florida,
Massachusetts, New York, and Texas. We are finding instances of recipients not being able to
document their required matching share commitments and not properly tracking and reporting
matching funds:
       ●	 One recipient had identified matching share that was almost $600,000 less than the total
          amount required for the award. If additional match is not secured, this would result in a
          corresponding reduction in allowable federal funds of nearly $2,400,000.
       ●	 Another recipient stated that they had $7,000,000 in matching share expenses; however,
          these matching share contributions were not recorded in the grant accounting records and
          we were unable to verify whether any of the expenditures were allowable under the PSIC
          grant.

Recommendation

We recommend that NTIA, in conjunction with the FEMA Grant Programs Directorate, closely
monitor grantees’ matching shares to ensure that matches directly benefit the PSIC grant
program, meet eligibility, and are properly reported.

II.         Investments Appear to Be on Track for Completion Before End of Grant

Our review of drawdowns and our discussions with NTIA management showed that grantees had
drawn down only 31 percent of the available funds (see appendix B), indicating that many of the
grant programs were still in the preliminary stages. However, we did not find any indication that
grantees would not meet PSIC deadlines, especially since NTIA can extend the deadlines for
grantees to September 2012.

III.	         Technical Assistance Provided by NTIA and FEMA Should Be Effective in Assisting
              Grantees Achieve Program Goals

NTIA and FEMA released several documents to provide technical assistance to help grant
recipients achieve program goals. These include the following:
       •	 an online guide called Improving Interoperable Communications Nationwide: Overview
          of Initial State and Territorial Investments,6
       •	 Information Bulletin No. 313,7 which announced the establishment of PSIC assistance
          within the period of performance to all 56 states and territories, and
                                                            
6
 See footnote 2. 

7
 Ashley, W. Ross. April 22, 2009. Grants Programs Directorate Information Bulletin No. 313 [Online]. 

www.fema.gov/pdf/government/grant/bulletins/info313.pdf



                                                               3
 
U.S. Department of Commerce                                           Final Report OIG-11-001-A

Office of Inspector General                                                      October 7, 2010 



       •	 NTIA and FEMA’s Program Management Handbook,8 which was posted on NTIA’s
          website.

NTIA also has provided information on matching requirements to grantees through published
grants guidance, workshops, conferences, and direct communication. In addition, matching
requirements were a main point of discussion at NTIA’s national conference for grantees, which
was held in October 2010. We believe that the assistance provided by NTIA and FEMA will help
grantees to achieve the program’s goal of improving public safety communication.




                                                            
8
 NTIA and FEMA. October 2009. Program Management Handbook [Online].
http://www.ntia.doc.gov/psic/PSIC_Handbook_111809.pdf



                                                               4
 
U.S. Department of Commerce                                             Final Report OIG-11-001-A

Office of Inspector General                                                        October 7, 2010 



                               SUMMARY OF AGENCY RESPONSES


NTIA Response and OIG Comments
In response to our finding that NTIA, in conjunction with the FEMA Grant Programs
Directorate, needs to closely monitor grantees’ matching share, NTIA agreed and will work with
grantees to ensure that states and territories are appropriately meeting and documenting their
matching fund requirements. We concur with NTIA’s proposed action.


FEMA Response and OIG Comments
The FEMA Grant Programs Directorate agreed with our recommendation to closely monitor
grantees’ matching share. FEMA also stated that it has provided assistance to grantees through
various methods, including e-mails, telephone calls, and site visits; and that it would provide
further assistance to grantees at NTIA’s national conference. We concur with FEMA’s proposed
action.
See appendix C for the full text of both agencies’ responses.




                                                5
 
U.S. Department of Commerce                                             Final Report OIG-11-001-A

Office of Inspector General                                                        October 7, 2010 



                    APPENDIX A: OBJECTIVES, SCOPE, AND METHODOLOGY


This report details our second assessment of NTIA’s management of the program for the fiscal
year ended September 30, 2009, with selected data used through March 31, 2010, to determine
whether the program (1) was operating efficiently with grantees procuring communications
equipment; (2) will effectively enable the grant recipients to complete their projects before
September 30, 2011, or through fiscal year 2012 with NTIA’s approval; and (3) technical
assistance provided by NTIA and FEMA will be effective in assisting grantees achieve PSIC’s
goals by the program deadline.
To meet our objectives, we
   •	 met with NTIA officials and the Department of Homeland Security’s (DHS’) FEMA
      Grant Programs Directorate officials responsible for the PSIC grant program;
   •	 reviewed DHS PSIC grant monthly drawdown reports for each state and territory; and
   •	 reviewed audit reports of PSIC grants conducted by OIG to date.


We also evaluated grantee compliance with federal laws and regulations applicable to PSIC
grants, including
   •	 Public Law 111-96;
   •	 NTIA’s online guide, Improving Interoperable Communications Nationwide: Overview
      of Initial State and Territory Investments, November 2008;
   •	 DHS FEMA Information Bulletin #313, April 22, 2009; and
   •	 NTIA’s Program Management Handbook, October 2009.


We obtained an understanding of NTIA’s management controls by interviewing NTIA officials
and PSIC program officials, examining policies and procedures, and reviewing written assertions
from NTIA officials.
We assessed the validity and reliability of computer-processed data supplied by NTIA and the
FEMA Grant Programs Directorate by directly testing the data against supporting
documentation. Based on our tests, we concluded that the computerized data were reliable for
use in meeting our objectives.
We conducted this review in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.
We performed this review under authority of the Implementing Recommendations of the 9/11
Commission Act of 2007, the Inspector General Act of 1978, as amended, and Department
Organization Order 10-13, August 31, 2006.


                                               6
 
U.S. Department of Commerce                                       Final Report OIG-11-001-A

Office of Inspector General                                                  October 7, 2010 



                               APPENDIX B: PSIC DRAWDOWNS

                                                                   Total PSIC
                              PSIC Federal    Drawdowns as of           Funds      Percent
         State                    Funds($)   March 31, 2010($)   Remaining($)    Drawn (%)
Alabama                         13,585,399            368,657     13,216,742             3
Alaska                           7,250,345          4,447,930       2,802,415           61
American Samoa                     691,948            172,429         519,519           25
Arizona                         17,713,050          6,094,200     11,618,850            34
Arkansas                        11,169,402          1,197,593       9,971,809           11
California                      94,034,510         19,157,223     74,877,287            20
Colorado                        14,336,638          8,221,421       6,115,217           57
Connecticut                     12,999,879               5,497    12,994,382            <1
Delaware                         8,196,842          2,139,775       6,057,067           26
District of Columbia           11,857,972           2,485,931       9,372,041           21
Florida                        42,888,266          17,674,540     25,213,726            41
Georgia                         25,311,354         17,500,802       7,810,552           69
Guam                             2,600,678            946,661       1,654,017           36
Hawaii                           8,069,879          1,378,139       6,691,740           17
Idaho                            7,289,795          5,261,721       2,028,074           72
Illinois                        36,414,263         11,409,744     25,004,519            31
Indiana                        18,291,735          14,566,674       3,725,061           80
Iowa                            10,935,974          7,703,268       3,232,706           70
Kansas                         10,667,169           9,383,348       1,283,821           88
Kentucky                       15,405,625           4,337,733     11,067,892            28
Louisiana                      19,672,287          13,508,915       6,163,372           69
Maine                            7,567,579          3,509,366       4,058,213           46
Maryland                        22,934,593          1,809,749     21,124,844             8
Massachusetts                  21,191,988             869,915     20,322,073             4
Michigan                       25,039,781          11,023,782     14,015,999            44
Minnesota                       14,262,071          3,895,392     10,366,679            27
Mississippi                    10,989,345           1,738,759       9,250,586           16
Missouri                        17,465,576            280,000     17,185,576             2
Montana                          6,549,685          1,118,836       5,430,849           17
Nebraska                         8,582,108            784,094       7,798,014            9
Nevada                          12,042,417          3,652,569       8,389,848           30
New Hampshire                    5,966,760               9,292      5,957,468           <1
New Jersey                      30,806,646            290,492     30,516,154            <1
New Mexico                       8,288,725          2,363,594       5,925,131           29
New York                        60,734,783          5,051,270     55,683,513             8
North Carolina                  22,130,199          3,390,510     18,739,689            15



                                              7
 
U.S. Department of Commerce                                                Final Report OIG-11-001-A
Office of Inspector General                                                           October 7, 2010



                                                                          Total PSIC
                              PSIC Federal         Drawdowns as of             Funds          Percent
         State                    Funds($)        March 31, 2010($)     Remaining($)        Drawn (%)
North Dakota                     7,052,490               4,610,973         2,441,517               65
N. Mariana Islands                 719,236                   15,708          703,528                2
Ohio                            29,377,337              22,626,212         6,751,125               77
Oklahoma                        11,684,183               6,311,138         5,373,045               54
Oregon                          12,182,532               2,756,295         9,426,237               23
Pennsylvania                    34,190,555               7,190,038        27,000,517               21
Puerto Rico                      9,590,025               2,204,127         7,385,898               23
Rhode Island                     7,365,694               6,598,183           767,511               90
South Carolina                  13,499,308               6,033,849         7,465,459               45
South Dakota                     6,549,691               3,782,654         2,767,037               58
Tennessee                       17,540,752              12,048,634         5,492,119               69
Texas                           65,069,247              13,320,933        51,748,314               20
U.S. Virgin Islands                856,907                 800,054            56,853               93
Utah                            10,353,261               4,045,849         6,307,412               39
Vermont                          4,476,761                 183,183         4,293,578                4
Virginia                        25,012,521               8,103,520        16,909,001               32
Washington                      19,180,347               3,915,236        15,265,111               20
West Virginia                    8,429,484               5,451,804         2,977,680               65
Wisconsin                       15,367,216                 965,280        14,401,936                6
Wyoming                          5,952,187               1,310,414         4,641,773               22
       TOTAL                   968,385,000             300,023,904       668,361,096               31
Source: NTIA/FEMA monthly drawdown reports




                          Percent of PSIC Funds Drawn Down 
                                 as of March 31, 2010

          30
          25
          20
          15
                   26                                                 # of States/Territories
          10
                               14            11
           5
                                                           5
           0
                  0‐25%       26‐50%    51‐75%          76‐100%

       Source: NTIA/FEMA monthly drawdown reports



                                                   8 
U.S. Departmem of Commerce                                                            Final Report OIG-11-OOI-A
Office of Inspector General                                                                     October 7. 2010



                                  Appendix C: Agency Responses




                                                             UNITED STATES DEPARTMENT OF COMMERCE
                                                             The Assistant Secretary for Communications
                                                             and Information
                                                             Washington, D.C. 20230


                                                              SEP 2 0 2i



     MEMORANDUM FOR:                       Jerry McMahan
                                           Assistant Regional Inspector General for Audit and
                                           Evaluation

     FROM:                                 Lawrence E. Strickling ryuu*%4**.i>& y jQtsoUs&jOi*-
                                           Assistant Secretary for Communications        '
                                           and information


     SUBJECT:                              Draft Audit Report No. DEN-19633: Second Annual
                                           Assessment ofthe Public Safety Interoperable
                                           C'onnnunicalions Grant Program

     In accordance with Department Administrative Order213-3, and as requested in your
     memorandum of August 31. 2010. transmitting the Office of Inspector General's (OIG) Draft
     Audit Report No. DEN-19633, I am pleased to submit the National Telecommunications and
     Information Administration's (NTIA) response to the report.

     Draft Audit Report Recommendations

     The Draft Audit Report recommends that:

            ...NTIA. in conjunction with the FEMA Grant Programs Directorate, closely
            monitor grantees' matching shares to ensure that matches directly benefit the
            PSIC grant program, meet eligibility, andareproperly reported.

     Recognizing the importance of grantees meeting their match obligations. NTIA. along with the
     Federal Emergency Management Agency (FEMA) Grant Programs Directorate (GPD), will work
     closely with the grantees to ensure that States and Territories are appropriately meeting and
     documenting their matching funds requirements.

     NTIA has provided additional assistance on match issues to grantees through the PSIC Program
     Management Handbook (PMH) (hup: www.ntia.doc.ttOv/Dsic PSIC Handbook I| 180°.pdn. and
     will address grantee matching share requirements and documentation methodology as a priority
     topic during the PSIC Grantee Conference on October 5-6, 2010. in Cleveland, OH.
U.S. Department of Commerce                                             Final Report OIG-11-001-A

Office of Inspector General                                                        October 7, 2010 





                          DHS/FEMA Response to Draft Report No. DEN-19633
    Second Annual Assessment of the Public Safety Interoperable Communications Grant Program
 

U.S. Department of Commerce, Office of Inspector General Recommendation 1:  

We recommend that NTIA, in conjunction with the FEMA Grant Programs Directorate, 
closely monitor grantee’ matching shares to ensure that matches directly benefit the PSIC 
grant program, meet eligibility, and are properly reported. 

FEMA GPD Response: 

The Grant Programs Directorate, in conjunction with NTIA, is continuing to diligently 
monitor grantees and will work closely with them to ensure that match sources are eligible,
directly benefit the PSIC Grant Program, and are appropriately documented.  

FEMA has provided assistance to grantees on match issues through:  

      •	 One‐on‐one grantee assistance via email, telephone, and site visits. 

      •	 The PSIC Program Management Handbook 

         (http://www.ntia.doc.gov/psic/PSIC_Handbook_111809.pdf).


      •	 The Match Toolkit (http://www.ntia.doc.gov/psic/content/MatchToolkit.xls) and
         associated instructions
         (http://www.ntia.doc.gov/psic/content/MatchToolkitInstructions.doc). 

      •	 Reviews of submitted budget modifications; any budget modification is carefully 
         reviewed from the financial perspective to ensure that the State or territory is 
         meeting the minimum required match and that match sources are eligible.  

      •	 Monitoring of financial reports (i.e., BSIR, FFR). 

FEMA has taken the OIG’s recommendation into consideration and tailored the PSIC 
Grantee Assistance Conference agenda to address match documentation and requirements. 
A publication on match to be distributed at the conference will provide additional guidance 
and specific match examples to grantees. FEMA representatives will be available during the 
conference to provide in‐person technical assistance for match concerns. 




                                                                                     DEN-19633




                                                 10
 
